CERTIFICATE OF SERVICE
I hereby certify that, on this 11th day of December, 2019, I caused one copy of the foregoing
Application For Extension of Time to File a Petition for a Writ of Certiorari, in Rodriguez v. City
of San Jose, No. ____, to be served by e-mail and by First Class Mail, postage pre-paid, on:
Richard Doyle
Nora Frimann
Margo Laskowska
Office of the City Attorney
200 East Santa Clara Street, 16th Floor
San Jose, California 95113-1905
Cao.main@sanjoseca.gov
I further certify that all parties required to be served have been served.

s/ Erik S. Jaffe______________
Erik S. Jaffe

